App. 1

IN THE COURT OF APPEALS FOR
THE STATE OF WASHINGTON
GEORGE ARTEM,

)
)

Appellant,

No. 78808-6-1

) DIVISION ONE
v.
> UNPUBLISHED
KING COUNTY DEPARTMENT ) OPINION
OF ADULT & JUVENILE
) FILED:
DETENTION,
) April 22, 2019
Respondents.
Mann, A.C.J. - Pro se appellant George Artem
filed suit against the King County Department of
Adult & Juvenile Detention (DAJD), asserting multi­
ple causes of action arising from his incarceration at
the King County Correctional Facility Solitary Hous­
ing Unit. The trial court dismissed Artem’s claims on
summary judgment. We affirm.
FACTS
On September 6, 2014, police arrested George
Artem for attempted kidnapping in the second degree
after he grabbed an eight-year-old girl who was play­
ing at a park in Kirkland. Artem was booked into the
King County Correctional Facility (KCCF). At the Jail
Health Services (JHS) intake screening, Artem indi­
cated that he had a history of bipolar disorder and was
currently taking Zyprexa, an antipsychotic medication.
He stated that he received mental health care through
Harborview Medical Center and that he had been

App. 2
hospitalized in 2007 for psychiatric issues. The intake
nurse observed that Artem was calm, cooperative, and
speaking clearly. After verifying Artem’s diagnosis
with Harborview, the nurse prescribed a daily dose of
Zyprexa, scheduled a mental health examination, and
cleared him to be housed in the general population.
On the afternoon of September 7, Artem began to
exhibit disruptive behavior. He blocked the dayroom
door, argued with other inmates, and yelled and cursed
at the corrections officer. Artem was subsequently re­
moved from the general population and placed in a
single occupancy cell in predisciplinary housing. That
evening, Artem refused to take his Zyprexa.
On September 8, a corrections officer reported that
Artem was staring, not speaking, and throwing items
out of his cell. That evening, Artem again refused to
take his Zyprexa and requested melatonin instead.
When told that JHS does not prescribe melatonin,
Artem asked to be prescribed lithium. The nurse re­
ported that although Artem made occasional odd state­
ments, he did not appear to be delusional. She placed
a referral to psychiatric services for review of his med­
ication refusal.
On September 9,2014, DAJD staff and corrections
officers reported that Artem had been exhibiting in­
creasingly erratic and bizarre behavior. The nurse as­
sessed that Artem appeared to be having a mental
health crisis. Accordingly, JHS transferred Artem from
predisciplinary housing to “yellow” level psychiatric

App. 3
isolation housing.1 Artem agreed to release his medical
records to his mother and his attorney. That evening,
Artem again refused to take his Zyprexa.
On September 10, 2014, Artem exhibited signs of
acute psychosis during his initial mental health evalu­
ation. The JHS psychiatric evaluation specialist made
a provisional diagnosis of “Bipolar I Disorder, Manic”
and concluded that Artem should remain in yellowlevel psychiatric isolation for his safety and the safety
of others. Later that day, a JHS psychiatrist confirmed
Artem’s diagnosis. She discontinued the Zyprexa and
prescribed a twice-daily dose of lithium, but Artem re­
fused to take it.
On September 12, a JHS psychiatric evaluation
specialist met with Artem. Artem’s cell was wet and dirty,
and he was naked, agitated, and “floridly psychotic.”
The evaluator scheduled a follow up appointment and
recommended that Artem remain in yellow-level isola­
tion housing.
On September 14, a JHS psychiatrist determined
that Artem’s condition had deteriorated significantly,
1 KCCF has three levels of psychiatric housing based on
mental health symptoms and level of functional impairment.
“Green” level housing is for inmates who exhibit active mental
health symptoms and moderate functional impairment. “Yellow”
level housing is for inmates who exhibit active mental health
symptoms and severe functional impairment. Inmates at this
level who present significant security concerns or are unable to
meaningfully engage with others may be placed in “yellow isola­
tion” housing. Inmates at risk of serious self-harm in the imme­
diate future are placed in “red” level housing.

App. 4
and that he was “gravely disabled” and “a danger to
others.” She recommended a Harper hearing to deter­
mine whether Artem should be involuntarily medi­
cated.2
The Harper hearing took place on September 19.
The committee concluded that Artem was at an in­
creased risk of harm to others as a result of his mental
disorder, that his capacity to meet his basic health
needs was impaired, and that he was gravely disabled.
Accordingly, the committee found that Artem should be
required to take antipsychotic medication for 14 days.3
That evening, Artem was placed in a restraint chair
and given an injection of medication. After that, Artem
began taking his medication orally when offered. His
condition gradually improved.
On October 6, following a second Harper hearing,
the committee decided not to extend the involuntary
medication order. Artem subsequently agreed to return
to yellow-level group housing. On October 13, he was
transferred to green-level psychiatric housing. On
October 28, the antipsychotic medication was discon­
tinued and Artem was prescribed only lithium. On No­
vember 18, 2014, Artem was released from the KCCF.
2 Washington v. Harper. 494 U.S. 201, 110 S. Ct. 1028, 108
L. Ed. 2d 178 (1990).
3 Artem received notice prior to the hearing, and he and his
lay advocate were present at the hearing. Artem refused to accept
a copy of the hearing decision, so a psychiatric evaluation special­
ist appealed the decision on his behalf. The head of JHS psychi­
atric services, Dr. Michael Stanfill, reviewed the record and
affirmed the decision.

App. 5
On December 18, 2014, Artem attended an opt-in
hearing for King County District Court Regional Men­
tal Health Court.4 After Artem agreed to plead guilty
to a misdemeanor charge of assault in the fourth de­
gree, the court sentenced him to a 24-month suspended
sentence with credit for time served and 24 months of
supervised probation, on the condition that he abide by
all mental health court conditions. The State then
dropped the felony charge of attempted kidnapping in
the second degree. Artem was generally compliant
with the conditions of mental health court. His case
was closed on December 13, 2016.
On September 6, 2016, Artem filed a pro se com­
plaint against King County DAJD, seeking $150,000,000
in damages arising from loss of economic opportunity,
permanent damage to his good name, mental and psy­
chological duress, and inhumane treatment while in
the custody of the State of Washington. Artem’s com­
plaint was based on the following factual allegations:
3.1 That George Artem was booked into
King County Correctional Facility on 9.06.14
having been charged with the crime of at­
tempted kidnapping 2nd
3.2 That on or about 9.07.14 was placed into
the King County Correctional Facility Soli­
tary Housing Unit

4 Defendants with certain mental illnesses who agree to
comply with a treatment plan may be eligible to opt into mental
health court.

App. 6
3.3 That as a result of being placed into sol­
itary custody Mr. Artem suffered what is com­
monly referred to as a “manic episode”
3.4 That Mr. Artem served 74 consecutive
days in jail with an additional 14 days served
while under the custody of King County Re­
gional Mental Health Court.
On September 20, 2016, Artem filed a motion for
preliminary injunctive relief regarding construction of
a new police complex in north Seattle. On September
29, 2016, Artem filed a motion for summary judgment,
arguing that he was entitled to an award of damages
because King County (1) failed to timely serve its an­
swer, (2) damaged his good name, (3) caused him to suf­
fer mental and psychological duress while in solitary
confinement at KCCF, (4) forced him to spend excessive
time in custody, and (5) subjected him to inhumane
treatment while in solitary confinement. He also reit­
erated his request for injunctive relief. In support of
his motion for summary judgment, Artem attached
several unauthenticated documents.
On February 28, 2017, King County filed a cross­
motion for summary judgment. Artem did not file a re­
sponse to King County’s motion. Rather, on March 24,
2017, seven days before the summary judgment hear­
ing, Artem filed an amended motion for summary
judgment. The amended motion included several new
allegations not previously raised, as well as a request
to maintain the suit as a class action.

App.7
On March 31, 2017, the trial court granted sum­
mary judgment to King County, denied Artem’s motion
for summary judgment, and dismissed his claims with
prejudice. The trial court also denied Artem’s subse­
quent motion for reconsideration.
On March 16, 2018, Artem filed a motion on the
merits under RAP 18.14(a) seeking direct review at the
Washington Supreme Court. On May 4, 2018, a Wash­
ington Supreme Court commissioner denied Artem’s
motion, ruling that Artem had failed to show that the
trial court clearly and reversibly erred when it dis­
missed his action. On June 18, 2018, Artem filed a mo­
tion for en banc hearing, which King County opposed.
On August 7, 2018, the Washington Supreme Court
transferred Artem’s appeal to this court pursuant to
RAP 4.2.
ANALYSIS
We review summary judgment orders de novo.
Sevbold v. Neu. 105 Wn. App. 666, 675, 19 P3d 1068
(2001). Summary judgment is proper if, after viewing
all facts and reasonable inferences in the light most fa­
vorable to the nonmoving party, there are no genuine
issues as to any material fact and the moving party is
entitled to a judgment as a matter of law. CR 56(c);
Eicon Const. Inc, v. E. Wash. Univ.. 174 Wn.2d 157,164,
273 P.3d 965 (2012). The moving party bears the initial
burden of showing the absence of an issue of material
fact. If the moving party meets this initial showing and
is a defendant, the burden shifts to the plaintiff. Young

App. 8
v. Key Pharmaceuticals. Inc.. 112 Wn.2d 216, 225, 770
P.2d 182 (1989).
A party opposing a motion for summary judgment
may not rely on speculation, argumentative assertions
that unresolved factual issues remain, or its affidavits
considered at face value. Rather, “the nonmoving party
must set forth specific facts that sufficiently rebut
the moving party’s contentions and reveal that a gen­
uine issue as to a material fact exists.” Herman v.
Safeco Ins. Co. of Am.. 104 Wn. App. 783, 787-88, 17
P.3d 631 (2001). In so doing, the nonmoving party “may
not rely on speculation, argumentative assertions
that unresolved factual issues remain, or in having
its affidavits considered at face value.” Seven Gables
Corp. v. MGM/UA Entm’t Co.. 106 Wn.2d 1,13,721 P.2d
1 (1986). If the nonmoving party “Tails to make a
showing sufficient to establish the existence of an ele­
ment essential to that party’s case, and on which that
party will bear the burden of proof at trial,’ ” summary
judgment is proper. Young. 112 Wn.2d at 225 (quoting
Celotex Corp. v. Catrett. 477 U.S. 317, 322, 106 S. Ct.
2548, 91 L. Ed. 2d 265 (1986)).
Artem contends that the superior court erred in
dismissing his complaint on summary judgment. But
Artem presented no competent, admissible evidence
showing a genuine issue of material fact regarding any
of the claims raised in his complaint or addressed in
King County’s motion for summary judgment. There
appears to have been no discovery. Nor did Artem at­
tempt to support his allegations with affidavits or of­
fers of proof from witnesses or experts who could

App. 9
substantiate his claims. “Bare assertions that a genu­
ine material [factual] issue exists will not defeat a
summary judgment motion in the absence of actual
evidence.” Trimble v. Wash. State Univ.. 140 Wn.2d 88,
93, 993 P.2d 259 (2000)).
Artem’s unsubstantiated allegations of fact are
not, by themselves, sufficient to overcome a motion for
summary judgment. The trial court did not err in dis­
missing his claims.
Affirmed.
/s/ Mann, A.C.J.
WE CONCUR:
/s/ Smith, J.

Is/ Andrus, J.

App. 10

IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
GEORGE ARTEM,

No. 16-2-21341-3 SEA

Plaintiff,
v.
KING COUNTY
DEPARTMENT OF
ADULT & JUVENILE
DETENTION, ET AL.,

ORDER DENYING
MOTION FOR
RECONSIDERATION

Defendants.
THIS MATTER is before the Court on Plaintiff
George Artem’s Motion for Reconsideration of the sum­
mary judgment dismissal of his claims. The Plaintiff’s
Motion for Reconsideration is DENIED.
Dated this 11th day of April, 2017.
e-filed
The Honorable Mariane C. Spearman
King County Superior Court
516 3rd Avenue, Room C203
Seattle, Washington 98104
(206) 477-1647

App. 11
The Honorable Judge Marianne C. Spearman
IN THE SUPERIOR COURT FOR
THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
GEORGE ARTEM

No. 16-2-21341-3 SEA

Plaintiff,

ORDER GRANTING KING
COUNTY DEFENDANTS’
MOTION FOR SUMMARY
JUDGMENT

vs.
KING COUNTY
DEPARTMENT OF
ADULT & JUVENILE
DETENTION, ET AL,

[PROPOSED]

Defendants.
THIS MATTER having come on for hearing before
the undersigned court on Defendant King County’s
Motion for Summary Judgment and the Court having
reviewed said motion, Plaintiff’s Response, and De­
fendant’s Reply if any, and all matters submitted with
these pleadings, and being otherwise fully advised.
NOW THEREFORE, it is ORDERED that Defen­
dants’ Motion for Summary Judgment is GRANTED.
It is further ORDERED that all of the claims set forth
in Plaintiff’s Complaint are dismissed with prejudice.
DONE IN OPEN COURT this 31st day of March,
2017.
/s/ [Illegible]
HONORABLE Marianne
MARIANE C. Spearman

App. 12
Presented by:
DANIEL T. SATTERBERG
King County Prosecuting Attorney
By: /s/ Kimberly Frederick_________ __
Kimberly Y. Frederick, WSBA No.: 37857
Senior Deputy Prosecuting Attorney
Attorney for Defendants
King County Prosecuting Attorney’s Office
500 Fourth Avenue, Suite 900
Seattle, Washington 98104
(206) 296-8820 Fax (206) 296-8819
Kimberly.frederick@kingcounty.gov

App. 13

THE SUPREME COURT OF WASHINGTON
GEORGE ARTEM,

)
)
)
)

Petitioner,
v.
KING COUNTY DEPARTMENT
OF ADULT & JUVENILE
DETENTION,
Respondent.

)
)
)
)

No. 97215-0
ORDER
Court of Appeals
No. 78808-6-1

Department II of the Court, composed of Chief
Justice Fairhurst and Justices Madsen, Stephens,
• Gonzalez and Yu, considered at its October 2, 2019,
Motion Calendar whether review should be granted
pursuant to RAP 13.4(b) and unanimously agreed that
the following order be entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 3rd day of
October, 2019.
For the Court
/s/ Fairhurst, CJ.
CHIEF JUSTICE

$.
i-

(.

4
•if

J.
1

i

h
iw

%

i.

<?

%

f#

4

